United States Government                                                         Department of Energy

memorandum
    DATE:    October 18, 2006
 REPLY TO
 ATTN OF:    IG-40

 SUBJECT:    Letter Report on "Drug Testing For Security Positions at DOE's Portsmouth and l'aducah
             Sites" (S051S036), Report No. 1NS-L-07-0 1

       TO:   Manager, Oak Ridge Office

             This Letter Report provides the results of an Office of luspector General (OIG) inspection
             regarding the Department of Energy's (DOE's) drug testing program for security positions at
             DOE's I-'ortsmoutli Gaseous Diffusion Plant (Portsmouth), Piketon, Ohio, and tlie Paducah
             Gaseous Uiffi~sionPlant (Paducah), Paducah, Kentucky.



             In 1993, both plants were leased to tlie United States Enrichment Corl?oration, a privately
             ownecl government created entity, to enrich uraniu~lifor sale to coni~nercialnuclear reactors.
             Currently, Paducal] enriches and sells uranium. Residual enriched uranium remains iu
             enriching equipment at Portsmouth, wliicl~is now in "cold standby" slatus. Enriched uraniu~n
             at botli sites is categorized as special nuclear material. Autl~oritiesfor Protective Force
             Officers at botli sites to carry weapons and make arrests are tlxougli the Oak Ridge Office.

             The OIG received infoomlation that drug paraphernalia, which contained traces of
             nletlia~nphetaniine,had been found within a liniited security area at Paducall; and, that later, a
             Protective Force Officer at tliat site tested positive for use of metlia~nphetamine. The Officer's
             employment was subsequently terminated.

             The ob-jective of our inspection was lo determine whether DOE random drug testing procedures
             had been implemented at Paducah for protective force personnel. Due to its similarity with tlie
             Paducah site, we expanded the scope of our inspection to i~lcludethe P~rtsmoulhsite.

             RESULTS OF INSI'ECTLON

              We deter~ilinedthat DOE random drug testing procedures for protective force personlie1 had
              not been implemented at the Ports~nouthand Paducah sites. The drug testing program at botli
              sites was limited to pre-eniploymeiit drug screening and "for cause" dnlg scree~iing(a d ~ v gtest
              for a specific event which would cause maiiagernent to believe that an e~iiployeehad been
              using drugs). Consequently, tlie absence of a random drug testing program decreased the
              likelihood that drug use by protective force oiTicers at tlie sites would be detected.

              Title 10, Code of Federal Regulations, Part 707 "Workplace Substance Abuse Programs at
              IjOE Sites," ( 1 0 CFR 707) applies to DOE contracts wit11a value of $25,000 or Illore at sites
              owned by DOE and operated under tlie authority of the Atomic Energy Act of 1954 (AEA), and
                                                                           or special nuclear material. Jn
              tllat involve access to or handling of classified info~~ilatio~i
accordance wit11 10 CFR 707, specified indivicluals will be sl~l-?ject
                                                                    to ~.trn(loilr[eniphasis added]
drug testing, including protective Torce personnel who possess firearms and require polential
contact witli, 01-proximity to, the public at large.

The requirements oT 10 CFli 707 appear to apply lo boll1 Portsinoulh and Parlucali.
Specifically, both sites:

         are owned hy DOE and subject to the requirements of the AEA;
         colitain both classified information and special nuclear niaterial;
         have protective force personnel who possess fireamis and, who are in El-eq~rent
         contact witli tlie public; and,
         Iiave security rorce contracts for DOE with a dollar value in excess of $25,000.

Clonsistent will1 DOE'S policy to maintain a d ~ u gPree environnlent Tor its workforce, we
reco~nniendthat tlie Manager, Oak Ridge Office ensure that a workplace substallce abuse
program Tor Protective Force OTficers is established at tlie Portsmouth and Paducall sites
consistent witli the requirements OF 10 CFR 707.

In response to our draft report, the Manager, Oak Ridge Orfice, colicurred in principle with
our recommendation and supported our position Tor random drug testing. T l ~ eManager slated
that Oak Ridge is in a unique position with the Unilecl States Enricli~nentCorporation and is
in t l ~ eprocess oT determining the appropriate mechanism to impose 10 CFR 707. A plan of
actioll is i l l process and is targelecl Lo be completetl by December 31, 2006.

'I'liis inspectio1-1was coliducted i l l accordance with the "Quality Stanclards Tor I~ispections"
issued by the President's Council on Jntegrity and Efficiency. We appreciate t l ~ ecooperation
we received fi-om the field offices and IIeadqual-ters during this inspection. If you have any
questions cancel-ning tliis review, please contact Ms. Christine Shafik or rile at (202) 586-
 4109.




 cc:     ('IiicTof Staff
         Assistant Secretal-y,Office of Environmenlal Management
         C'hieF, Office o r Ilealth, SaTely and Security
         Director, Orfice of Internal Review (CF-1.2)
